                                                                  Issue Date
                                                                         June 4, 2007
                                                                  Audit Report Number
                                                                         2007-LA-1012




TO:         William Vasquez, Director, Los Angeles Office of Community Planning and
              Development, 9DD




FROM:        Joan S. Hobbs, Regional Inspector General for Audit, Region IX, 9DGA

SUBJECT: Central City Lutheran Mission, San Bernardino, California, Did Not Properly
           Administer Its Supportive Housing Program Grants


                                    HIGHLIGHTS

 What We Audited and Why

      We audited Central City Lutheran Mission (Mission) in response to a recommendation
      from the Los Angeles Office of Community Planning and Development.

      Our objectives were to determine whether the Mission’s Supportive Housing Program
      grant funding was spent in compliance with U.S. Department of Housing and Urban
      Development (HUD) requirements and its grant agreements. Specific objectives were to
      determine whether (1) the grantee had the capacity to operate multiple grants, (2) grant
      expenses were eligible and adequately supported, (3) matching fund requirements were
      met, (4) properties purchased with grant funds were retained as required, and (5)
      participants’ rent amounts were calculated correctly.


 What We Found

      The Mission lacked the capacity to properly administer multiple Supportive Housing
      Program grants. In addition, it spent $294,072 for unsupported and ineligible expenses
      and failed to fully support that it provided required matching funds for $429,468 in grant
      funds. It also prematurely sold two apartment buildings purchased with $280,000 in
      grant funds without HUD’s written approval. Finally, while the Mission correctly
     verified the eligibility of its clients, it failed to collect more than $13,183 in funds
     because the rents were not calculated correctly.

What We Recommend

     We recommend that HUD not provide the Mission with any future funding until it has
     implemented adequate systems and controls. We also recommend that HUD require the
     Mission to reimburse the grants and/or repay HUD from nonfederal funds for the
     $699,438 in unsupported expenses and $304,102 in ineligible expenses. Additionally, we
     recommend that HUD require the Mission to correct and implement effective procedures
     and controls to ensure that all income and expenses are properly considered so that rent
     calculations are correct.

     For each recommendation without a management decision, please respond and provide
     status reports in accordance with HUD Handbook 2000.06, REV-3. Please furnish us
     copies of any correspondence or directives issued because of the audit.

Auditee’s Response

     We provided the Mission a draft report on April 23, 2007. The Mission provided its
     written comments on the requested date of May 9, 2007 and we held an exit conference
     with the Mission’s officials on May 10, 2007. The Mission generally disagreed with our
     report.

     The complete text of the auditee’s response, along with our evaluation of that response,
     can be found in appendix B of this report. Due to the voluminous nature of the Mission’s
     exhibits in their response, we will make them available upon request.




                                                2
                             TABLE OF CONTENTS

Background and Objectives                                                              4

Results of Audit
   Finding 1: The Mission Lacked the Capacity to Properly Administer Multiple          6
                 Supportive Housing Program Grants
   Finding 2: The Mission Spent $294,072 in Supportive Housing Program Funds for       9
                 Unsupported and Ineligible Expenses
   Finding 3: The Mission Was Unable to Fully Support $758,491 in Required             13
                 Matching Funds
   Finding 4: The Mission Prematurely Sold Two Apartment Buildings without HUD’s       16
                 Written Approval
   Finding 5: The Mission Failed to Correctly Calculate and Support the Basis of the   18
                 Participants’ Rents

Scope and Methodology                                                                  20

Internal Controls                                                                      21

Appendixes
   A.   Schedule of Questioned Costs and Funds to Be Put to Better Use                 23
   B.   Auditee Comments and OIG’s Evaluation                                          24
   C.   Criteria                                                                       36
   D.   Schedule of Unsupported and Ineligible Expenses                                38
   E.   Schedule of Unsupported Match Funds                                            39
   F.   Schedule of Rent Calculation Deficiencies                                      40




                                              3
                      BACKGROUND AND OBJECTIVES

The Supportive Housing Program is authorized under Title IV of the McKinney Homeless
Assistance Act. The program is designed to promote the development of supportive housing and
services, including innovative approaches to assist homeless persons in the transition from
homelessness, and to promote the provision of supportive housing for homeless persons to
enable them to live as independently as possible. Eligible activities include transitional housing,
permanent housing for homeless persons with disabilities, innovative housing that meets the
intermediate and long-term needs of homeless persons, and supportive services for homeless
persons not provided in conjunction with supportive housing.

The Central City Lutheran Mission (Mission), located in San Bernardino, California, received its
first grant from the U.S. Department of Housing and Urban Development (HUD) in 1999, which
it used to start Saint Martin’s House, a transitional living space for human immunodeficiency
virus (HIV)-positive homeless persons. In 2001, the Mission received a second grant from HUD
that helped to extend its program. With this grant, the Mission was able to acquire 8 new homes
to provide housing for 28 more persons. This project works specifically with disabled persons to
provide long-term supportive housing. Over the past seven years the Mission has received the
following grants:


                     Temporary housing – Saint Martin’s House
                                                 Grant      Amount                   Housing
           Grant number – grant year            amount     expended                    type
             CA16B809008 – 1999                 $63,513     $63,513                Single house
             CA16B309013 – 2004                 $17,671     $17,671                Single house
             CA16B409017 – 2005                 $17,672     $15,765                Single house
                                     Subtotal   $98,857     $96,949
                                  Permanent housing
             CA16B909002 – 2001                $487,622    $487,622                  10 houses
             CA16B309012 – 2004                 $76,794     $76,794                  10 houses
             CA16B409005 – 2005                 $76,794     $32,051                  10 houses
                                     Subtotal $641,210     $596,467
             CA16B109001 – 2002                $539,952    $539,952                  Apartment
                                                                                     buildings
                                          Subtotal     $539,952       $539,952

Grand total                                           $1,280,019     $1,233,368

Our objectives were to determine whether the Mission’s Supportive Housing Program grant
funding was spent in compliance with HUD requirements and its grant agreements. Specific
objectives were to determine whether (1) the grantee had the capacity to operate multiple grants,
(2) grant expenses were eligible and adequately supported, (3) matching fund requirements were



                                                 4
met, (4) properties purchased with grant funds were retained as required, and (5) participants’
rent amounts were calculated correctly.




                                                5
                                  RESULTS OF AUDIT

Finding 1: The Mission Lacked the Capacity to Properly Administer
Multiple Supportive Housing Program Grants
The Mission lacked the capacity to properly administer multiple Supportive Housing Program
grants in compliance with requirements. It had

   •   Inadequate accounting systems, controls, and procedures (see findings 2, 3, and 5) and

   •   Inadequate knowledge of Office of Management and Budget circulars and grant
       requirements (see findings 2 and 3).

We attribute these deficiencies to the Mission’s inadequate emphasis on ensuring that it was
operating in accordance with federal requirements. Collectively, these conditions prevent the
Mission from carrying out Supportive Housing Program activities as intended by HUD.


 The Mission Had Inadequate
 Accounting Systems, Controls,
 and Procedures

       The Mission had inadequate accounting systems, controls, and procedures in place, which
       contributed to the deficiencies, discussed in findings 2, 3, and 5 of this report. Specifically,
       the Mission spent $294,072 in grant funds for unsupported and ineligible expenses, failed to
       fully support that required grant matching funds totaling $429,468 were met, and failed to
       correctly calculate program participants’ rents and maintain required documentation. In
       addition to the inadequacies discussed in findings 2, 3, and 5, specific problems with the
       Mission’s accounting systems and controls are discussed below.

       Commingling of Funds

       The Mission inappropriately commingled its funds. For example, for grant
       CA16B409017, the Mission commingled all of its expenses paid ($41,566) with grant
       CA16B409005. It is not clear why the commingling occurred. The Mission changed its
       accounting software from Quickbooks to Peachtree in 2005; however, this grant was
       commingled in 2006. During the operation of the grant, the Mission was only operating
       one other grant. As a result of the commingling, grant CA16B409017 showed no
       expenses for the temporary housing program for which it was funded, while grant
       CA16B409005 showed that all of its funding was expensed, plus additional funding to
       cover the expenses of the temporary housing program.




                                                  6
    Financial Data Not Recorded Properly

    The Mission used two different accounting software systems between 2000 and 2006;
    each of them had the capability of separating expenses for each of the Mission’s
    Supportive Housing Program grants. However, a review of the general ledger showed
    that the financial data was not recorded properly to separate accounts. For instance, in
    2000, the Mission set up separate revenue accounts for funding received from each of the
    various HUD grants and separate revenue accounts for its various other grants. However,
    it did not always separate expense accounts related to its various HUD and other grants.
    By 2005, the Mission had several different expense accounts set up for non-HUD grants,
    each having a different extension; however, only one account was set up for all of its
    HUD grants. The software used was capable of having various extensions, allowing the
    Mission to separate expenses for its various HUD, grants but this capability was not used.

    Record Keeping Not Adequate

    The Mission did not have an adequate system for maintaining grant records. Records
    from 2000 through 2004 were difficult to locate and, while records for 2005 through
    2006 were easier to locate, some invoices and statements for expenses (such as The
    Home Depot) were nearly impossible to match to the charges found in the Mission’s
    general ledgers. In addition, as discussed in finding 2, the Mission lacked timesheets
    supporting payroll expenses charged to its Supportive Housing Program grants. A
    monitoring report by the Human Services System’s auditing unit, dated March 25, 2003,
    stated, regarding a prior finding from a report, dated September 19, 2002, “We were not
    able to trace the cost claimed to the contractor’s [the Mission] general ledger. We were
    not able to trace the amount claimed per invoice to the employee’s timesheet either.” An
    update on that finding stated, “we tested the timesheets for the monitoring period and
    noted no coding to justify the allocation of payroll charges to the Title I Program.”
    Another report, dated April 5, 2005, from the Mission’s certified public accountant
    stated, “It was noted during the examination of the financial statements for the year ended
    December 31, 2002, supporting documentation had been requested, however, it was
    difficult to locate.” Statements in each of these reports substantiate that our inability to
    locate supporting documentation was not an isolated event. Thus, inadequate record
    keeping has been an ongoing problem at the Mission.

The Mission Had Inadequate
Knowledge of Office of
Management and Budget and
HUD Grant Requirements

    The Mission had inadequate knowledge of Office of Management and Budget
    requirements and HUD grant requirements, which contributed to the deficiencies
    discussed in findings 2 and 3. Specifically, the Mission spent $294,072 for unsupported
    and ineligible expenses and failed to fully support $429,468 in required grant matching
    funds. We attribute these deficiencies in part to Mission officials’ inadequate knowledge

                                             7
     of the requirements and inexperience by its accounting staff and other personnel. While
     the case management staff had the Office of Management and Budget grant requirements
     in their possession via HUD training guides, the bookkeeper did not. Further, with the
     assistance of the Mission’s outsourced certified public accounting firm, the Mission’s
     bookkeeper expressed that she had only recently (late 2006) read each of the grant
     agreements and become aware of what items and amounts she could charge to the HUD
     grants. Although the Mission’s bookkeeper was knowledgeable and experienced, it was
     clear that she received a great deal of assistance from the outsourced bookkeeper for
     information related to grant accounting.


Conclusion


     We attribute the deficiencies noted above to the Mission’s inadequate emphasis on
     ensuring that it was operating in accordance with federal requirements. Collectively,
     these conditions prevent the Mission from carrying out Supportive Housing Program
     activities as intended by HUD. Until these deficiencies are corrected, there is no
     assurance that future grant funds will be expended in accordance with requirements.

Recommendation

     We recommend that the director of the Los Angeles Office of Community Planning and
     Development

     1A. Not award the Mission additional funding until it implements adequate systems,
     procedures, and controls.




                                             8
Finding 2: The Mission Spent $294,072 in Supportive Housing Program
Funds for Unsupported and Ineligible Expenses

The Mission spent $294,072 of its $1.23 million in grant funds for unsupported ($269,970) and
ineligible ($24,102) expenses. We attribute the deficiencies to the Mission’s (1) inadequate
knowledge of Office of Management and Budget regulations, (2) inexperienced accounting staff
and other employees, and (3) inadequate controls and procedures to ensure that grant
expenditures were properly documented and supported. As a result, these improper expenditures
prevented the Mission from carrying out its Supportive Housing Program activities as intended.


    The Mission Spent $294,072 on
    Unsupported and Ineligible
    Expenses

           We reviewed grant expenditures totaling $1.5 million1 for seven grants and found that the
           Mission spent at least $294,072 in Supportive Housing Program funds for unsupported
           ($269,970) and ineligible ($24,102) expenses (see appendix D). More specifically, the
           unsupported expenses related to

           •   Payroll ($139,341) for employees for whom we did not find timesheets or time
               activity reports to support that the employees worked on Supportive Housing
               Program-related grant activities and

           •   Expenditures ($130,629) for which there were no accounting records to support the
               nature of the expenses.

           The ineligible expenses related to

           •   Expenses ($18,103) for non-HUD programs,

           •   Payroll ($5,241) related to positions that were not authorized in the Mission’s grant
               technical submissions, and

           •   Payroll ($758) for an employee of the Mission’s non-HUD-funded Kinship program.

           Details of the expenses are discussed separately below.




1
    This amount includes matching funds and excludes ineligible funds.

                                                          9
The Mission Spent $269,970 in
Grant Funds for Unsupported
Expenses

     Unsupported Payroll

     Contrary to Office of Management and Budget Circular A-122, for four of the seven
     grants, the Mission spent $139,341 in payroll expenses for employees whose required
     supporting timesheets or time activity reports could not be found. Specifically, 22 of 26
     employees received payroll checks from the Mission under HUD grants; however, there
     were no timesheets supporting hours worked. Some of the positions held by these
     employees were maintenance worker, maintenance supervisor, executive director, social
     worker, and program director; we have no knowledge of the positions held by others due
     to a lack of employee files and records maintained by the Mission.

     Unsupported Expenditures

     Contrary to 24 CFR [Code of Federal Regulations] 84.21(b) (2), the Mission had
     $130,629 in unsupported expenditures for which there were no accounting records to
     support the nature of the expenses. While the Mission’s accounting records accounted
     for the receipt of grant funds received for its grants, the amounts expensed to each of the
     grants totaled less than the amounts the Mission had drawn down. Because the Mission
     receives other sources of non-HUD funding, we were unable to determine specifically
     how the Mission spent the unsupported funds.

The Mission Spent $24,102 in
Grant Funds for Ineligible
Expenses

     Expenses for Non-HUD Programs

     The Mission paid $18,103 in grant funds for non-HUD programs or facilities. Its 2000
     thru 2006 general ledgers contained charges to Saint Mathias House, the Clinic, Wartburg
     Hall, the Rialto Apartments, and the Mission, all of which are non-HUD-funded
     programs or locations at the time the charges were made. The expenses charged included
     supplies, utilities, telephones, maintenance, and repairs. The Mission continued charging
     expenses for the Rialto apartments to its other HUD grants after the grant ended and after
     the sale of the buildings.




                                              10
     Unauthorized Payroll

     In 2000, 2001, and 2002, the Mission spent $5,241 for two employees (chief cook and
     peer educator) who held positions that were not authorized in the corresponding grant
     technical submissions submitted to HUD. The Mission was authorized three employees
     and/or positions: (1) a case manager, (2) an executive director, and (3) a building and
     grounds coordinator. However, the Mission charged the chief cook’s salary to this grant,
     although for 2000 through 2002, it charged less than $200 to food. Additionally, while
     other employees’ timesheets listed for which program they worked, the chief cook’s
     timesheets did not show to which program(s) his time should have been charged. The
     peer educator’s timesheets also lacked information to identify the work performed related
     to the HUD grant. Therefore, we concluded that these payroll expenses were ineligible
     supportive housing expenses.

     Ineligible Payroll

     In 2004, an outreach worker working for the Mission’s Kinship grant program was paid
     $758 from one HUD grant; however, the Kinship grant is a separate (non-HUD) program
     from HUD’s Supportive Housing Program grant. Therefore, this expense was ineligible.


Conclusion



     We attribute the deficiencies noted above to the Mission’s (1) inadequate knowledge of
     Office of Management and Budget Circular A-122, (2) inexperience by its accounting
     staff and other employees, and (3) inadequate controls and procedures to ensure that grant
     expenditures were properly documented and supported. As a result, these improper and
     ineligible expenditures prevented the Mission from carrying out Supportive Housing
     Program activities as intended.




                                             11
Recommendations

    We recommend the director of the Los Angeles Office of Community Planning and
    Development require the Mission to

    2A. Reimburse the grant and/or repay HUD from nonfederal funds for the $269,970 in
    unsupported expenses unless it can provide adequate supporting documentation.

    2B. Reimburse the grant and/or repay HUD from nonfederal funds for the $24,102 in
    ineligible expenses.

    2C. Establish and implement controls and procedures to ensure that grant expenditures
    are properly documented and supported.




                                          12
Finding 3: The Mission Was Unable to Fully Support $758,491 in
Required Matching Funds
The Mission’s accounting records failed to fully support that it had provided $758,491 in
required matching funds for $429,468 in transitional and permanent housing program grant
funds. We attribute these deficiencies to the Mission’s inadequate knowledge of Office of
Management and Budget Circular A-110, inexperience by its accounting staff and other
employees, and inadequate controls to ensure appropriate accounting of match funds. As a
result, neither HUD nor the Mission was assured that the Mission maximized the effectiveness of
the program’s intent to house and support HIV-positive homeless individuals.


 The Mission Was Unable to
 Support Match Reported in
 Annual Progress Reports

       Contrary to 24 CFR [Code of Federal Regulations] 583.125(c), which requires grantees
       to pay the percentage of the actual operating costs not funded by HUD, and section
       583.145(a), which requires grantees to match funds provided by HUD for acquisition and
       rehabilitation with an equal amount of funds from other sources, the Mission’s
       accounting records did not fully support match funding amounts reported in its annual
       progress reports. We reviewed seven of the annual progress reports submitted to HUD
       by the Mission and found that the reported cash match amounts did not equal those
       recorded in the Mission’s general ledgers.

       The Mission’s accounting records were deficient and did not identify cash match
       requirements. Specifically, the Mission was not able to

              •   Verify cash match in its Supportive Housing Program,
              •   Ensure that contributions were specific to Supportive Housing Program
                  grants, or
              •   Determine whether cash match was necessary and reasonable for proper and
                  efficient accomplishment of project or program objectives.

       As a result, we were unable to determine the basis used by the Mission to support its
       dollar amounts reported as expended for matching funds in its annual progress reports to
       HUD.

 The Mission Had Deficient
 Accounting Records

       The Mission provided accounting records that did not record or track its cash match
       funding used for its HUD Supportive Housing Program grants. Thus, we reviewed every
       transaction from the Mission’s general ledgers to determine which expenses were related

                                               13
     to HUD grants according to account descriptions used by the Mission. We separated the
     transactions by the description given by the Mission, then calculated all of the expenses
     related to HUD grants, which helped to determine whether or not the Mission met its
     matching fund requirements. The Mission did not meet its required match funding as
     required by 24 CFR [Code of Federal Regulations] Part 583 and the Mission’s grant
     agreements. Further, for four of the seven grants, we noted that the Mission’s accounting
     records did not even show that it expended the full amount of funding it received from
     HUD. Below is a schedule showing the cash match required for the seven grants.

                                                                         Required
                                                                        acquisition,
                                                        Required       rehabilitation,       Total
                           Grant        Required       supportive         and new          required
                          amount        operating       services        construction       matching
            Grant        disbursed       match           match             match             funds
                                                                                              Not
 1       CA16B809008  $63,513               $0              $0               $0            applicable
 2       CA16B309013  $17,671             $4,905          $2,500             $0              $7,405
 3       CA16B409017  $15,765             $4,905          $2,500             $0             $6,664*
 4       CA16B909002 $487,622            $34,188         $75,000          $245,000         $354,188
 5       CA16B309012  $76,794            $11,392         $24,998             $0             $36,390
 6       CA16B409005  $32,051            $11,392         $24,998             $0            $15,284*
 7       CA16B109001 $539,952               $0           $58,560          $280,000         $338,560
         Total       $1,233,368          $66,782        $188,556          $525,000         $758,491
 *This amount was adjusted downward because amount disbursed is lower than actual grant amount awarded.

     Our audit found the following

     •    Grant one did not require matching funds due because the matching fund agreement
          was not a requirement in that year;
     •    Grants three and six fully met the matching fund requirements;
     •    Grants two, four, and five did not meet any of the matching fund requirement (see
          appendix E); and
     •    Grant seven did not fully meet the matching fund requirement (see appendix E).


The Mission Did Not Have
Adequate Procedures


     The Mission did not have adequate procedures for obtaining its required share of its
     Supportive Housing Program grants during the term of the grant and then using the cash
     match funds for eligible activities under the individual grants. Such entries should be
     recorded to fully disclose the nature and extent of the cash match. In addition, such
     transactions need to be properly supported and recorded. Had this process been in place,


                                                 14
     the Mission would have been able to clearly show where the cash match for the seven
     grants reviewed was expensed and directly applied toward specific grant activities.

Conclusion

     We attribute the deficiencies noted above to the Mission’s inadequate knowledge of
     Office of Management and Budget requirements governing maintenance of accounting
     records and financial management systems to document its cash match funding,
     inexperience by its accounting staff and other employees, and inadequate internal
     controls to ensure appropriate accounting of matching funds. As a result, neither HUD
     nor the Mission was assured that it maximized the effectiveness of the program’s intent to
     house and support HIV-positive homeless individuals.

Recommendations

     We recommend that the director of the Los Angeles Office of Community Planning and
     Development require the Mission to

     3A. Reimburse the grant and/or repay $429,468 (see appendix E) from nonfederal funds
     unless it can provide adequate documentation that it met 100 percent of its required match
     funds.

     3B. Establish and implement adequate controls to ensure that grant matching funds are
     appropriately tracked in the accounting system and that adequate supporting source
     documentation is maintained.




                                              15
Finding 4: The Mission Prematurely Sold Two Apartment Buildings
without HUD’s Written Approval

The Mission prematurely sold two apartment buildings that it had acquired and rehabilitated with
Supportive Housing Program funds totaling $280,000 without HUD’s written approval as
required. We attribute this deficiency to the Mission’s disregard of the requirement to obtain
HUD’s written approval. As a result, (1) the Mission failed to fully serve those homeless
individuals that it had intended to serve and (2) formerly homeless individuals were
unnecessarily displaced or became homeless again.


 The Mission Did Not Receive
 Written Approval from HUD

       The Mission received funding from both the County of San Bernardino’s Department of
       Economic and Community Development in the amount of $450,000 and HUD in the
       amount of $280,000 to acquire and rehabilitate two apartment buildings in the city of
       Rialto. The Mission signed separate agreements with each organization. The HUD
       agreement required the Mission to notify and request permission in writing in the event
       that it wished to dispose of the properties before the end of the 20-year retention
       requirement. The Mission received the HUD grant in September 2002 and had disposed
       of the first apartment building by March 2006 and the second building by April 2006, less
       than five years after the grant was executed.

       We found written documentation sent to the County of San Bernardino, requesting a
       transfer of the properties located in Rialto, which was carbon copied to HUD. Thus, it is
       clear that the Mission was aware that it needed to notify HUD of its intentions to dispose
       of these properties. However, it did not receive any written approval from HUD and did
       not follow up to obtain HUD’s approval. The Mission claimed to have spoken with the
       deputy director of HUD’s Los Angeles Office of Community Planning and Development
       in December 2005 via telephone and that he stated that the Mission would not have to
       repay any money; however, the HUD office was unable to substantiate this conversation.
       Ultimately, HUD was not made aware that the properties were sold until our audit.

       We spoke with several clients who once lived in these apartments. One client stated that
       she had to make her own phone calls to figure out her new living arrangements. This
       client did not receive a space in one of the Mission’s permanent housing program houses
       in San Bernardino until three months after both Rialto apartments were sold. Although
       we did not speak with every client who was displaced due to the disposition of the Rialto
       apartments, it is clear that the Mission did not make housing arrangements for all of the
       clients who resided there.

       The Mission profited $424,000 from the sale of these two apartment buildings.
       Individually, it profited $48,087 from the sale of the Shamrock building and $375,913

                                               16
     from the sale of the Jackson building. In addition, the County of San Bernardino’s
     Department of Economic and Community Development was repaid its $450,000 grant,
     and $58,500 was paid in commissions to brokers. We have been unable to determine
     exactly what happened to the proceeds.

Conclusion

     We attribute the deficiency noted above to the Mission’s disregard of the requirement to
     obtain HUD’s written approval. As a result, the Mission failed to fully serve those
     homeless individuals identified in the grant application for whom HUD approved the
     grant. The Mission’s premature sale of the properties also unnecessarily displaced
     formerly homeless individuals whom it had assisted through the grant program. In the
     Mission’s October 31, 2005, annual progress report, it reported that it had assisted 17
     participants, which included seven children. These participants were unnecessarily
     displaced or became homeless again.

Recommendation

     We recommend that the director of the Los Angeles Office of Community Planning and
     Development require the Mission to

     4A. Ensure that it obtains any required HUD approvals in the future.

     4B. Reimburse HUD from nonfederal funds for the $280,000 in grant funds expended.




                                            17
Finding 5: The Mission Failed to Correctly Calculate and Support the
Basis of the Participants’ Rents

The Mission failed to correctly calculate and support the basis of the program participants’ rents.
We attribute this deficiency to the Mission’s inadequate procedures and controls to assure that
required documentation was maintained and also its misunderstanding of the requirements. As a
result, the Mission failed to collect additional income of more than $13,000, which could have
helped it meet its financial responsibilities and its matching fund requirements.



 The Mission Miscalculated
 Participants’ Rents

       Contrary to 24 [Code of Federal Regulations] 5.240(c) and 583.315, the Mission did not
       always compute program participants’ rents correctly. It failed to calculate correctly 13
       of 21 participants’ (62 percent) share of cost payments reviewed and failed to maintain all
       of the required documentation to support the basis of the participants’ rents (see appendix
       F). Specifically, the Mission made the following errors:

       •       Did not include all income sources in the participants’ total annual income (6 of
               21),
       •       Had contradictions between the rental calculation sheet and the share of cost
               spreadsheet (4 of 21),
       •       Issued an allowance without adequate support in the file (3 of 21),
       •       Did not give an allowance for those with support in the file (2 of 21),
       •       Incorrectly gave a $2,400 credit to annual income (10 of 21),
       •       Did not maintain required documentation (7 of 21),
       •       Did not maintain support for rent (7 of 21), and
       •       Failed to collect rent (1 of 21).

       As shown above, the Mission incorrectly gave nearly half of the participants reviewed a
       $2,400 credit to their annual income, thus causing an incorrect calculation of the
       participants’ rents. According to the Mission’s program director, the $2,400 was not paid
       in monetary benefits because the Mission considered it to be a stipend to the participants.
       This credit was for those clients who assisted with the Mission’s daily operations.
       However, applying the $2,400 as a credit to the participant’s annual income
       inappropriately reduces the participant’s monthly adjusted income, which then reduces
       the participants’ share of cost. The Mission could have gained a considerable amount of
       rental income had it properly charged the participants the correct amount of rent. For
       example, one client received a $2,400 credit from his income because he assisted the
       Mission in maintaining the lawns for various residences. To compensate, the Mission
       applied a nonmonetary benefit as a stipend of $2,400 credit to his income, thereby



                                                18
     reducing his annual income substantially. Thus, the Mission could have collected an
     additional $1,090 per year had it determined his income accurately.

Conclusion

     We attribute the deficiency noted above to the Mission’s inadequate procedures and
     controls for assuring that all income and expenses were properly considered so that
     accurate rent calculations would be made and all required documentation maintained. In
     addition, the Mission misunderstood the requirements related to the correct application of
     the $2,400 stipend. As a result, it failed to collect additional income of more than
     $13,000, which could have helped it meet its financial responsibilities and its matching
     fund requirements.

Recommendations

     We recommend that the director of the Los Angeles Office of Community Planning and
     Development to require the Mission to

     5A. Correct and implement effective procedures and controls to ensure that rent
     calculations are performed correctly, which will enable the Mission to generate at least
     $13,183 in additional income (funds to be put to better use).

     5B. Establish and implement procedures and controls to assure that all income and
     expenses are properly considered in the future and that all required documentation is
     maintained.




                                             19
                         SCOPE AND METHODOLOGY

We performed our audit work between August 2006 and February 2007 at the Mission, located
in San Bernardino, California and at the facilities in the surrounding area. The audit generally
covered the period January 2000 through July 2006 and covered the seven grants with an
effective date in 2005 or prior. To accomplish our objectives, we reviewed applicable guidance
and discussed operations with management and employees of the Supportive Housing Program
and key officials from HUD’s Los Angeles Office of Community Planning and Development.
Our primary methodologies included

   •   Reviewing applicable HUD regulations at 24 CFR [Code of Federal Regulations] Parts
       84 and 583, Office of Management and Budget Circular A-122, Section 103 of the
       McKinney Act, and United States Code 11383.

   •   Interviewing appropriate HUD personnel and reviewing relevant grant files to obtain an
       understanding of Supportive Housing Program requirements and identifying HUD’s
       concerns with the grantee’s operations.

   •   Reviewing the grantee’s policies, procedures, and practices in addition to interviewing
       the Mission’s key personnel.

   •   Reviewing past independent public accountants’ reports, prior HUD monitoring reports,
       and monitoring reports from Human Services System.

   •   Reviewing bank statements, deposits, invoices, payroll journals, and timesheets.

   •   Reviewing client files, vendor files, general ledgers, and other documentation provided
       by the Mission to support funding received from HUD.

We conducted our audit in accordance with generally accepted government auditing standards
and included tests of management controls that we considered necessary.




                                               20
                              INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls


       We determined the following internal controls were relevant to our audit objectives:

                •     Policies and procedures to ensure that grant expenditures were eligible and
                      adequately supported.
                •     Policies and procedures to ensure adequate financial management and
                      record-keeping systems.

       We assessed the relevant controls identified above.

       A significant weakness exists if management controls do not provide reasonable assurance
       that the process for planning, organizing, directing, and controlling program operations will
       meet the organization’s objectives.

 Significant Weaknesses


       Based on our review, we believe the following items are significant weaknesses:

       The Mission did not have

                •     Policies and procedures to ensure that grant rules and regulations were
                      followed (findings 1 and 4),

                •     Policies and procedures to ensure that grant expenditures were adequately
                      supported (finding 2), and


                                                21
•   Policies and procedures to ensure that adequate financial management and
    record-keeping systems were in place (findings 3 and 5).




                            22
                                   APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE

                                                                     Funds to be
       Recommendation                                                put to better
           number             Ineligible 1/        Unsupported 2/       use 3/
             2A                                      $269,970
             2B                 $24,102
             3A                                      $429,468
             4A                 $280,000
             5A                                                        $13,183
            Total               $304,102             $699,438          $13,183


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or federal, state, or local
     policies or regulations. In this instance, if the auditee implements our recommendations,
     it will ensure compliance with HUD requirements for eligible grant expenditures.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of audit. Unsupported costs
     require a decision by HUD program officials. This decision, in addition to obtaining
     supporting documentation, might involve a legal interpretation or clarification of
     departmental policies and procedures. In this instance, if the auditee implements our
     recommendations, it will ensure compliance with HUD requirements for cash match and
     supporting documentation for grant expenditures.

3/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. This includes reductions in outlays, deobligation of funds, withdrawal of
     interest subsidy costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     which are specifically identified. In this instance, if the auditee implements our
     recommendation, it will generate more income for its operations by correcting its rent
     calculations.




                                              23
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1




                         24
Comment 2




Comment 3
Comment 4
Comment 5
Comment 3


Comment 6




            25
Comment 4


Comment 3



Comment 7




Comment 8

Comment 7




Comment 9



            Names have been redacted for privacy




                            26
Comment 10


Comment 7


Comment 11




Comment 12




Comment 13




             27
28
Comment 14




Comment 15




             29
Comment 16



Comment 17




Comment 14




Comment 18




             30
31
                         OIG Evaluation of Auditee Comments

Comment 1   We acknowledge and appreciate the fact that the Mission became a HUD program
            participant to help homeless persons with HIV. However, it is incumbent upon
            all grantees to ensure compliance with all requirements pertinent to the grant
            funds received. The Supportive Housing Program grant funds were awarded to
            the Mission based on its grant application, which demonstrated the capacity to
            administer the grant.

Comment 2   The scope of our audit was limited to the five objectives stated in the report;
            therefore, it would be inappropriate for us to comment on subjective elements of
            the grant activities.

Comment 3   We disagree that the Mission has the capacity to administer multiple grants as
            currently structured. While there may have been improvements since the Mission
            received its first grant, additional improvements are still needed. As discussed in
            finding 1, our audit disclosed that the Mission had: (1) inadequate accounting
            systems, controls, and procedures (see findings 2, 3, and 5 of this report); and (2)
            inadequate knowledge of Office of Management and Budget circulars and grant
            requirements (see findings 2 and 3 of this report). While Mission employees may
            have attended some training, our audit showed that the bookkeeper was not
            sufficiently knowledgeable of grant requirements.

Comment 4   We acknowledge that the Mission implemented a new bookkeeping software
            program that has the capability of administering multiple grants. However, as
            discussed in finding 1, the Mission has not implemented this capability to separate
            expenses for its various HUD grants.

Comment 5   We agree that the Mission keeps separate files that contain the grant agreement
            and HUD correspondence. However, the Mission also provided us with several
            boxes that contained the Mission’s additional records, such as, invoices and
            timesheets. The documents were not separated by HUD grant and contained
            documents from several programs the Mission operates.

Comment 6   As discussed in Finding 1, the Mission’s accounting systems, controls and
            procedures were inadequate during the audit period. If the Mission has now
            changed its procedures, it can provide them to HUD during the audit resolution
            process to determine the adequacy of the new procedures.

Comment 7   We disagree that the Mission used its supportive housing program funds for
            supported and eligible expenses. As discussed in finding 2 of this report, we
            found that the Mission spent $294,072 of its $1.23 million in grant funds for
            unsupported ($269,970) and ineligible ($24,102) expenses. We reviewed the
            attachments 4-10 provided at the exit conference and determined that the
            documentation did not change our position. The documents provided were



                                             32
              mainly copies of checks and check registers. This type of document supports that
              a payment was made; however, it does not support that the questioned employees
              worked on supportive housing-related grant activities, nor does it support the
              nature of the expense in relation to the supportive housing program activities.
              Additionally, since the Mission did not maintain time activity reports as required
              by Office and Management and Budget Circular A-122, we cannot determine the
              portion of the salary expenses that should have been allocated to the supportive
              housing program grants. The Mission’s verbal narratives or written recollection
              of the nature of the expense, without any supporting documentation, is
              insufficient. As stated in Office of Management and Budget Circular A-110, the
              financial management system shall provide records that adequately identify the
              source and application of funds for federally sponsored activities.

              With regard to the ineligible expenses for non-HUD programs, we found that
              while the clinic provided the office space for the supportive housing program’s
              case worker, program director, and weekly support group, this facility was also
              used for board meetings, weekly non-supportive housing program meetings, daily
              childcare, and an after-school program. Therefore, the supportive housing
              program should not have paid 100 percent of the monthly utility invoices.
              Instead, the expenses should have been prorated. Additionally, we noted that the
              use of the clinic was not approved by HUD in the grant technical submission. In
              addition, the funding for the Rialto apartments was approved from September
              2002 through October 2005; thus, payments for expenses after October 2005 were
              not eligible expenses.

Comment 8: We acknowledge that the dollar amounts in the finding outlines versus the
           discussion draft report changed. As stated in the e-mail sent to the Mission with
           the finding outlines, the “Finding Outlines are a summary of what you can expect
           to find in the upcoming Discussion Draft Report”. The finding outlines were
           provided as a way to keep the Mission informed of our preliminary audit
           conclusions and gave the Mission the opportunity to discuss any issues or
           concerns with us about the findings. Similarly, the final published report may
           have items that have changed from what was in the discussion draft report, in
           response to the Mission’s verbal and written comments.

Comment 9: We did not wait until the Thursday prior to our last on-site day to ask about
           employees for the first time. We asked the bookkeeper, the program director and
           the executive director questions about various personnel during the course of the
           audit. In addition, we reviewed personnel files and timesheets in our attempts to
           learn more about various employees. In addition, we sent our finding outlines to
           the executive director on March 7, 2007 for review; we did not receive any
           feedback or comments from the Mission on the finding outlines. We also note
           that, as discussed in Comment 7, the Mission’s verbal narratives or written
           recollection of the nature of the expense, without any supporting documentation,
           is insufficient.



                                              33
Comment 10: We do not dispute that rehabilitation work was performed. However, without
            time activity reports we cannot determine who performed the work and the
            amount of time spent.

Comment 11: The scope of our audit covered the period January 2000 through July 2006, of
            which part of this period was prior to the Mission’s implementation of time
            activity reports. As previously noted, the Mission’s verbal narratives or written
            recollection, without supporting documentation is insufficient. In addition, as
            discussed in Comment 5, when we conducted the audit, we found that the time
            activity reports were not filed with the grant documentation.

Comment 12: The Mission can address this with HUD during the audit resolution process. As
            recommended, HUD should require the Mission to reimburse the grant and/or
            repay HUD for the unsupported expenses, unless it can provide adequate
            supporting documentation. If the Mission can provide adequate documentation
            to HUD, then it will not be required to repay the unsupported expenses.

Comment 13: We do not dispute that the Mission may have received this funding. However,
            its accounting records do not support that the funding received was used as cash
            match on the HUD grants. In addition, the Mission reported various amounts on
            its annual progress reports to HUD; however, we were unable to trace the
            amounts claimed to its general ledgers.

Comment 14: The fact remains that the Mission did not obtain HUD’s written approval to sell
            the properties. The Mission should have written directly to HUD to obtain its
            approval to sell the properties, or obtain a written waiver of the requirement.
            Nevertheless, we have recommended that HUD require the Mission to repay the
            grant funds; however, if HUD disagrees with that recommendation it can
            address it with us during the audit resolution process.

Comment 15: We visited the “garage” in question and it was basically one big room with two
            closet - like spaces. We can understand why either the family living in the
            house would object to occupants in the space and/or why the persons to occupy
            the space would object to staying there. Nevertheless, we have removed the
            statements from the report.

Comment 16: The nature of the relationship between a specific program officer and the
            Mission was not within our audit purview; thus, it was not appropriate to
            include any narrative on this matter. Our audit was restricted to the objectives
            stated in the report. We did not find that the relationship had any direct impact
            on the Mission compliance with its grant agreements or other pertinent
            requirements.

Comment 17: The documentation that the Mission provided to us during the audit did not
            support this as being the reason for the sale of the apartments. In fact, the
            Mission previously stated “CCLM is interested in selling the Subject Properties

                                              34
               in order to enable it to consolidate its charitable activities in a more focused
               manner, both functionally and geographically”. However, when we asked the
               executive director on August 8, 2006, why they sold the buildings he said they
               “no longer have the units because (1) it was difficult to manage due to its
               location, and (2) the areas are very dangerous due to gangs and drugs resulting
               in violence and property damage.” The area was bad and hazardous to the
               Mission's clients. Many of the Mission's clients were being accosted on their
               way to and from their apartments. Furthermore, the program director stated in
               writing “our program and our residents were trapped in the ghetto.”

Comment 18: We disagree. Since the Mission did not actually pay the clients the $2,400
            stipend, it was incorrect to deduct it from the clients’ income.




                                              35
Appendix C
                                        CRITERIA

  1. McKinney Act, Title I, Section 103, 42 United States Code 11302, states that the term
     “homeless” or “homeless individual or homeless person” includes an individual who
     lacks a fixed, regular, and adequate nighttime residence and an individual who has a
     primary nighttime residence that is a public or private place not designed for human
     beings. Further, the McKinney Act states that for the purpose of this Act, the term
     “homeless” or “homeless individual” does not include any individual imprisoned or
     otherwise detained under an act of the Congress or a state law.

  2. 42 United States Code 11383, Section (b)(1), states that acquisition, rehabilitation, and
     new construction projects assisted under subsection (a)(1) or (2) of this subsection shall
     be operated for not less than 20 years for the purpose specified in the application.

  3. 42 United States Code 11383, Section (c), states that the Secretary shall require
     recipients to repay 100 percent of any assistance received under subsection (a)(1) or (2)
     of this section if the project ceases to be used as supportive housing within 10 years after
     the project is placed in service.

  4. 24 CFR [Code of Federal Regulations] 84.21(b)(2) states that recipients’ financial
     management systems shall provide records that identify adequately the source and
     application of funds for federally sponsored activities. These records shall contain
     information pertaining to federal awards, authorizations, obligations, unobligated
     balances, assets, outlays, income and interest.

  5. 24 CFR [Code of Federal Regulations] 583.125(c) states that assistance for operating
     costs will be available for up to 75 percent of the total cost in each year of the grant term.
     The recipient must pay the percentage of the actual operating costs not funded by HUD.
     At the end of the each operating year, the recipient must demonstrate that it has met its
     match requirement of the costs for that year.

  6. 24 CFR [Code of Federal Regulations] 583.145(a) states that the recipient must match
     the funds provided by HUD for grants for acquisition, rehabilitation, and new
     construction with an equal amount of funds from other sources.

  7. 24 CFR [Code of Federal Regulations] 583.145(b) states that the matching funds must
     be cash resources provided to the project by one or more of the following: the recipient,
     the federal government, state and local governments, and private resources.

  8. 24 CFR [Code of Federal Regulations] 583.315(a) states that each resident of
     supportive housing may be required to pay as rent an amount determined by the recipient
     which may not exceed 30 percent of the family’s monthly adjusted income (adjustment
     factors include the number of people in the family, age of family members, medical
     expenses, and child care expenses). The calculation of the family’s income must include

                                               36
   the expense deductions provided in 24 CFR [Code of Federal Regulations] 5.611(a), and
   for persons with disabilities, the calculation of the family’s monthly adjusted income
   must include the disallowance of earned income as provided in 24 CFR [Code of Federal
   Regulations] 5.617, if applicable.

9. 24 CFR [Code of Federal Regulations] 5.240(a) and (c) state that this section applies to
   families that reside in dwelling units with assistance under the public housing program or
   the Section 8 tenant-based assistance programs or for which project-based assistance is
   provided under the Section 8, Section 202, or Section 811 program. The responsible
   entity must verify the accuracy of the income information received from the family and
   change the amount of the total tenant payment, tenant rent, or Section 8 housing
   assistance payment or terminate assistance, as appropriate, based on such information.

10. Office of Management and Budget Circular A-110, subpart C, section .21,
    paragraph b, subparagraph 2, requires the recipients’ financial management systems to
    provide records that identify adequately the source and application of funds for federally
    sponsored activities. These records shall contain information pertaining to federal
    awards, authorizations, obligations, unobligated balances, assets, outlays, income, and
    interest.

11. Office of Management and Budget Circular A-110, subpart C, section .21,
    paragraph b, subparagraph 7, states that recipients’ financial management systems
    shall provide accounting records, including cost accounting records that are supported by
    source documentation.

12. Office of Management and Budget Circular A-110, subpart C, section .23,
    paragraph a, subparagraph 1, states that all contributions shall be accepted as part of
    the recipient’s cost sharing or matching when such contributions are verifiable from the
    recipient’s records.

13. Office of Management and Budget Circular A-122, attachment B, section 7,
    subsection m, paragraph 1, states that charges to awards for salaries and wages,
    whether treated as direct costs or indirect costs, will be based on documented payrolls
    approved by a responsible official(s) of the organization. The distribution of salaries and
    wages to awards must be supported by personnel activity reports, as prescribed in
    subparagraph (2).

14. Office of Management and Budget Circular A-122, attachment B, section 7,
    subsection m, paragraph 1, subparagraph (2), states that reports reflecting the
    distribution of activity of each employee must be maintained for all staff members
    (professionals and nonprofessionals) whose compensation is charged, in whole or in part,
    directly to awards.




                                            37
 Appendix D

SCHEDULE OF UNSUPPORTED AND INELIGIBLE EXPENSES




                      38
       Appendix E

                  SCHEDULE OF UNSUPPORTED MATCH FUNDS
       Matching funds repayment
                                    CA16B309013     CA16B909002    CA16B309012    CA16B109001
            Description               Amount          Amount         Amount         Amount       Grand total
 Match fund repayment amount             $17,671        $487,622        $76,794        $75,593     $657,680
 Less questioned costs                   $14,357        $184,598        $23,210         $6,047     $228,212
            Match repayment total         $3,314        $303,054        $53,584        $69,546     $429,468



       Matching funds calculations
                     A              B            C=A-B               D          E=A+D           F=E-B
    Grant       Disbursed     General ledger   (Over)/under     Total match   HUD-funded +     Difference
                  by HUD        supported                        required        match     (over) or under
CA16B3090132      $17,671         $3,314            $14,357       $7,405        $25,076         $21,762
CA16B9090022     $487,622        $442,749           $44,873      $354,188       $841,810       $399,061
CA16B3090122      $76,794        $54,236            $22,558       $36,390       $113,184        $58,948
            3
CA16B109001      $539,952        $830,342          $(290,390)    $338,560       $878,512        $48,170



       Note 2. Operating expenses match requirement applies.
       Note 3. Operation expenses and the acquisition and rehabilitation match requirements apply.

       For grants CA16B309013, CA16B909002, and CA16B309012, the Mission did not exceed the
       amount funded by HUD; therefore, the match repayment amount is 100 percent of the funded
       grant amount less questioned costs. However, for grant CA16B109001, the Mission spent more
       than it was funded by HUD but did not fully meet its matching funds requirement and was short
       by $48,170. Therefore, the following calculations are necessary:

              Match supported ($290,390) divided by the required match ($338,560) is 86 percent. The
              Mission failed to meet its matching fund requirement by 14 percent; therefore, it will
              have to repay 14 percent of the HUD funding it received, which is $75,593, unless it can
              provide supporting documentation showing that it met the currently unsupported 14
              percent.




                                                       39
     Appendix F

             SCHEDULE OF RENT CALCULATION DEFICIENCIES

             Participant #        A     B    C    D    E    F    G    H    Underpaid Overpaid
             PD5104M57519                              x         x             $1,090
             DE6004M52474                    x         x                         $180
             HT7205F52798                                              x        $640
             MJ7206M00000                                                          $0
             CL5603M00000                                                          $0
             CM6209M62435                                        x                 $0
             SG8109F56390                                                                 $42
             ML5608F59693                                   x    x                 $0
             CC6501M61432                              x    x                   $360
             HH7202M51231          x    x              x    x                    $634
             WK7401F53906          x              x                               $45
             GB5504F50869          x                                             $241
             AL5507F50538                              x         x             $1,020
             FA7006F51599          x                   x    x    x             $6,201
             FJ7109M54452                         x    x    x    x             $1,120
             LR4308M54795          x                   x    x    x             $1,094
             SJ6310F51105               x    x         x    x                    $165
             HJ6410M56737               x              x                         $385
             FB6311M53008          x    x    x                                     $8
             DL6201F50752                                                          $0
             RJ6905M00001                                                          $0
             Total                 6    4    3    2    10   7    7    1       $13,183      $42

Note: Our review was limited to the information maintained by the Mission in its participants’ files.

     Legend
         A                     Not all income was included in the annual income.
         B            The rental calculation sheet contradicts the share of cost spreadsheet.
         C                 The allowance was issued with no support found in the file.
         D              No allowance was given to those with support found in the file.
         E                  There was no support for $2,400 credit to annual income.
                  Declaration of 0 income, rental calculation sheets, and/or rental receipts were
         F                                           missing.
         G              There was no rental support for years 2003, 2004, and/or 2005.
         H                                   Rent was not collected.




                                                      40
